<html>
<title> - RUSSIA 2012: INCREASED REPRESSION, RAMPANT CORRUPTION, ASSISTING ROGUE REGIMES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







RUSSIA 2012: INCREASED REPRESSION, RAMPANT CORRUPTION, ASSISTING ROGUE 
                                REGIMES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 21, 2012

                               __________

                           Serial No. 112-141

                               __________

        Printed for the use of the Committee on Foreign Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

73-456 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director














                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable David J. Kramer, President, Freedom House..........    10
Mr. William F. Browder, chief executive office, Hermitage Capital 
  Management.....................................................    26
The Honorable Steven Pifer, director of the Brookings Arms 
  Control Initiative, Brookings Institution (former U.S. 
  Ambassador to Ukraine).........................................    31
Leon Aron, Ph.D., director of Russian studies, American 
  Enterprise Institute...........................................    44

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable David J. Kramer: Prepared statement................    13
Mr. William F. Browder: Prepared statement.......................    28
The Honorable Steven Pifer: Prepared statement...................    33
Leon Aron, Ph.D.: Prepared statement.............................    46

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    67
The Honorable Gregory W. Meeks, a Representative in Congress from 
  the State of New York: Material submitted for the record.......    68
The Honorable David J. Kramer: Material submitted for the record.    80
Leon Aron, Ph.D.: Material submitted for the record..............    85

 
RUSSIA 2012: INCREASED REPRESSION, RAMPANT CORRUPTION, ASSISTING ROGUE 
                                REGIMES

                              ----------                              


                       WEDNESDAY, MARCH 21, 2012

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order. 
And before we give our opening statements on today's timely 
topic, I know that my good friend, the ranking member Mr. 
Berman has an important announcement to make. Timing is 
everything.
    Mr. Berman. Timing is everything. Madam Chairman, thank you 
very much. I'd like to make a brief announcement about the 
Subcommittee on Africa, Global Health and Human Rights. We all 
mourn the loss of our dear friend and colleague, Don Payne, one 
of our Nation's foremost experts on Africa, and a valued member 
of this committee.
    As all of us know, Don's untimely passing has left a 
vacancy in the ranking member slot for the Subcommittee on 
Africa, Global Health and Human Rights. I wanted to take this 
opportunity to announce that Representative Karen Bass, the 
next Ranking Democrat on the subcommittee, has been appointed 
to serve as ranking member of the subcommittee for the 
remainder of the 112th Congress pursuant to Rule 29C of the 
House Democratic Caucus rules, a document I'm sure all of you 
are familiar with.
    I'm certain Representative Bass will continue to focus on 
many of the issues that were important to Don, including Food 
Aid, Sudan, DRC, and conflict prevention across the African 
Continent. And I think she'll do a tremendous job. With that, I 
yield back.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Berman. And 
you're so right, while all of us continue to miss Congressman 
Don Payne and everything that he brought to this committee and 
to the institution, we're thankful for the opportunity to work 
with Karen Bass in her new role. We look forward to her 
contributions in the months ahead. So, welcome.
    Well, thank you. After recognizing myself and my friend, 
the ranking member Mr. Berman for 7 minutes each for our 
opening statements, I will recognize for 3 minutes the chair 
and ranking member of the Subcommittee on Europe and Eurasia 
for their opening remarks. I will then recognize other members 
seeking recognition for 1 minute. We will then hear from our 
witnesses, and without objection the written statements of all 
of our witnesses will be made a part of the record. And members 
may have 5 days to insert statements and questions for the 
record.
    The Chair now recognizes herself for 7 minutes.
    There is an old saying that says the more things change the 
more they stay the same. I'd give it in French but it's not so 
good. That phrase is particularly apt regarding Vladimir 
Putin's recent return to the presidency. Although his stand-in, 
Dimitri Medvedev, has occupied the post for the past 4 years, 
everyone knew that Putin still held the real power. And now he 
has stepped into the spotlight again ending the charade.
    Although there was no sign of a significant change in his 
course, this is a good time for us to take stock of where 
things stand in terms of the domestic situation in Russia and 
in its foreign policy, especially regarding U.S. interest.
    On the domestic front there is good news and bad. First the 
bad news. The regime continues to monopolize power with 
corruption entrenched throughout the entire government 
structure and reaching far into the economy and the general 
society.
    Moscow persecutes human rights activities and the political 
opposition including banning parties, forcibly breaking up 
rallies, and jailing and beating those who dare to defy it.
    Several perceived enemies have actually been killed, even 
murdered, as one of our witnesses will recount today. But there 
are also hopeful signs that the Russian people have begun to 
stand up to the regime and demand their basic rights.
    The massive demonstrations that followed last December's 
parliamentary elections which were characterized by open fraud 
have demonstrated that the people are losing their fear and are 
demanding fundamental political change. On the foreign policy 
front, however, I'm afraid there is only bad news.
    Putin is escalating his anti-American rhetoric and accuses 
the U.S. of one anti-Russian plot after another. But it isn't 
just rhetoric: His actions constitute a direct threat to U.S. 
interests and those of our allies.
    Regarding Iran, Russia continues to block efforts by the 
U.S. and other responsible nations to force Tehran to halt its 
nuclear weapons program, thereby encouraging the Iranian regime 
to press ahead.
    In Syria, Russia is helping to prop up the Assad regime by 
blocking U.N. Security Council Resolutions that are aimed at 
stopping the ongoing atrocities. Russia is sending warships to 
Syrian ports, selling weapons to the Assad regime to be used 
not only against its own people but potentially against Israel 
and other U.S. allies.
    Putin's determination expand Moscow's influence was 
demonstrated most dramatically by the invasion of Georgia in 
2008, and Russia's continuing occupation of major areas of that 
U.S. ally.
    Russia has suffered no significant costs from the West as a 
result of this aggression which can only encourage it to use 
force in the future. Not surprisingly, Russia's threat to NATO 
is growing.
    Russia has said that it will aim its missiles at NATO if 
the U.S. does not abandon its efforts to establish a missile 
defense shield in Europe against Iranian ballistic missiles.
    Independent experts agree that the planned missile defense 
poses no danger to Russia whatsoever, and Russian technicians 
know this as well. But Russia's real purpose is to establish a 
veto over NATO policy, as well as to demonstrate to the 
countries in Central and Eastern Europe that membership in the 
Atlantic Alliance will not protect them from Russian influence.
    In our hemisphere, Russia has become a friend to a number 
of U.S. enemies, including selling large quantities of 
conventional weapons to the Chavez regime in Venezuela.
    I don't know of anyone who expects Russia's policy toward 
the U.S. to change for the better, so what should the U.S. do? 
The most important step must be to stop giving Moscow one 
concession after another, and getting virtually nothing in 
return. In pursuit of this so-called reset the U.S. has handed 
Moscow a one-sided agreement on strategic nuclear weapons, 
removed sanctions on Russian companies known to have aided 
Iran's weapons program, and signed a very lucrative nuclear 
cooperation agreement, among many other concessions. The most 
recent gift was U.S. approval last December of Russia's entry 
into the World Trade Organization, including pressuring our 
ally, Georgia, to go along despite the fact that Russia 
continues to occupy its territory.
    Russia's entry into the WTO with U.S. support is astounding 
given that Russia continues to be one of the biggest violators 
of intellectual property rights, robbing U.S. citizens and U.S. 
companies of billions of dollars every year. For years, the 
Russian Government has promised to stop this piracy, but too 
many of the regime supporters benefit from it, so the theft 
continues. And now the administration is seeking to give Russia 
Permanent Normal Trade Relations. This requires lifting the 
restrictions of the Jackson-Vanik Amendment.
    That Amendment has long been a symbol of U.S. commitment to 
human rights and democracy in Russia. Removing Russia from its 
provisions would be interpreted in Moscow and elsewhere as a 
seal of approval from the United States Congress, even as the 
human rights situation in Russia continues to deteriorate. I 
hope that Congress will not grant one more concession to Russia 
without first holding Moscow accountable for actions that run 
contrary to U.S. national security interests and to such 
foreign policy priorities as the promotion of human rights and 
democracy.
    There are many more issues with Russia that could be added 
to this list, and I look forward to discussing these and other 
issues with our distinguished panel.
    I now turn to the ranking member, Mr. Berman, for the 
remarks of his opening statement.
    Mr. Berman. Well, thank you very much, Madam Chairman.
    This hearing on Russia 2012 comes at an important time in 
our bilateral relations. During the past 3 years, there have 
been some important successes in our new engagement with 
Russia, but there also have been some disappointing setbacks on 
democracy, human rights, and the Rule of Law, as well as 
foreign policy. And I'm afraid the return of Vladimir Putin as 
Russia's President will make further progress more difficult.
    In the run up to Presidential elections earlier this month, 
Putin once again resorted to the anti-American rhetoric that 
was the trademark of his nearly decade-long relationship with 
the Bush administration.
    Putin may be the same authoritarian ruler that he was 
before, but as the chairman pointed out, there are hopeful 
signs that the Russian people's tolerance for this type of rule 
has changed since he first assumed the presidency in 1999.
    The clearest signs of this change are the protests that 
occurred after the most recent parliamentary and Presidential 
elections. Neither of these elections was ``free and fair'' by 
international election standards. Both were marred by efforts 
to deny opposition parties and candidates the ability to run, 
the use of overwhelming administrative resources in favor of 
Putin and his United Russia party, known in the Russian 
blogosphere as the ``Party of Cheats and Thieves,'' and voting 
day irregularities that have become a hallmark of Russian 
elections.
    In response, over 100,000 people demonstrated near the 
Kremlin in sub-zero temperatures against the conduct of the 
December 2011 parliamentary elections. In the months that 
followed, smaller demonstrations occurred in Moscow and 
throughout several cities across Russia demanding election 
reform. It's too early to tell if this movement will continue 
into the spring, but we should support the Russian people and 
their renewed civic activism. I, for one, am hopeful that this 
burgeoning civil society will prove stronger than Putin and his 
former KGB cronies.
    On the international front, I'm troubled by the repeated 
statements of Russian officials that Moscow will not support 
additional sanctions at the U.N. Security Council to prevent 
Iran from developing a nuclear weapons capability. On a 
somewhat more positive note, the Russians recently reaffirmed 
their September 2010 decision not to provide the advanced S-300 
surface-to-air missile system to Tehran.
    Russia's policy on Syria is simply wrong and indefensible, 
and I share Secretary Clinton's sentiment that the Russian and 
Chinese veto of the Arab League proposal in the United Nations 
Security Council was despicable. The Russian Government must 
immediately cease its supply of weapons to the murderous Assad 
regime. The chairman's bill, the Syria bill includes an 
amendment I offered that would sanction those Russian companies 
complicit in this deadly business.
    Russia's accession package to join the World Trade 
Organization is the toughest ever negotiated for a prospective 
member, thanks to the perseverance and leadership of U.S. 
negotiators. But make no mistake, Russia is going to get into 
the WTO this summer.
    Since 1994 successive U.S. Presidents have granted Russia 
annual waivers from the application of Cold War era Jackson-
Vanik trade restrictions. If the U.S. Congress does not 
completely graduate Russia from Jackson-Vanik and grant 
permanent normal trade relations, that won't stop Russia from 
joining the WTO, but U.S. companies and American workers will 
not get the full benefit of Russia's membership in the WTO, and 
the tough accession package we negotiated.
    Like the chairman, I have serious reservations about the 
protection of intellectual property in Russia, but believe that 
the USTR can finish negotiating an action plan to strengthen 
the rights of American intellectual property owners before 
Russia joins the WTO this summer.
    Madam Chairman, there is no denying the fact that we have 
significant areas of disagreement with Russia, including 
Russia's record on human rights, democracy, and the Rule of 
Law, its conflict with Georgia, and Moscow's arms sales to 
dictatorial regimes. But focusing only on these issues creates 
a distorted picture of a complex U.S.-Russia relationship, nor 
does it serve our interest to become so fixated on the occupant 
of the Kremlin that we lose sight of other developments in 
Russian society.
    I look forward to hearing the views of a very distinguished 
panel and their recommendation for how we can best support the 
aspirations of the Russian people to build a democratic, 
stable, and prosperous Russian state. I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Berman.
    Now, we will yield for 3 minutes each to Mr. Burton, the 
chairman of the Subcommittee on Europe and Eurasia, to be 
followed by Mr. Meeks, the ranking member on that committee.
    Mr. Burton. Thank you, Madam Chairman.
    In December 2011, the Russian people took to the streets to 
protest what they perceived as an injustice and an affront to 
their democratic rights. Among allegations of widespread 
corruption during the parliamentary elections, the Russian 
people decided that they'd had enough. Since then, we witnessed 
months of peaceful protests throughout Russia. These protests 
have not been facilitated by or in support of any one political 
party. And these protests have not been driven by western 
influences or special interests. These protests are the work of 
every day Russians who want a better life through a stronger 
democracy.
    As Americans, we naturally identify with those who seek a 
strong democracy. We're presented with a special opportunity to 
help the Russian people as we did during the fall of Communism 
in the next steps of their natural progression toward democracy 
and open markets. It's easy to forget that Communism only ended 
two decades ago. Russia is still a young democracy.
    As the Russian people push their leaders toward reform we 
can make a choice to engage Russia or to confront Russia. 
Russia, in my opinion, deserves to be engaged. The Russian 
economy is eager for U.S. investment. The Russia people have a 
growing appetite for movies, our movies, our music, our brands, 
and for most aspects of Western culture.
    Last July I was in Moscow, and as I was walking the streets 
of Moscow, I could have mistaken the people shopping, and 
dining, and commuting as people from Indianapolis.
    Let me be clear, I don't want to grant Russia a free pass. 
The administration's reset has failed. We are no closer to an 
agreement on missile defense than we were 3 years ago, and 
Russian peacekeeping troops still illegally occupy portions of 
Georgia and Moldova, while Russia still supports regimes such 
as those in Tehran and Damascus.
    As we engage Moscow, we must be clear that the status quo 
on these issues is not acceptable. As part of this engagement, 
I hope we will continue to look for ways to help the Russian 
people get the democracy and the human rights that they 
deserve.
    The Russian market really presents an opportunity. I'm 
convinced of that after meeting with AmCham, the American 
Chamber of Commerce, when I was over there. As Russia enters 
the World Trade Organization, growing demand for American goods 
and services can support over 50,000 U.S. jobs within 5 years, 
so we need to look for ways to create opportunities for us to 
be able to work with Russia to solve these problems. That 
doesn't mean we should not put pressure on them regarding human 
rights, and the need to really have democratic reforms.
    We could work to improve U.S.-Russian relations to the 
benefit of both the U.S. and Russian people; however, this is 
only possible through engagement which right now don't really 
have, have not yet achieved. I yield back the balance of my 
time.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Burton.
    Mr. Meeks.
    Mr. Meeks. Thank you, Madam Chairman.
    The U.S.-Russia relationship remains at the top of our 
foreign policy agenda where it had been for more than half a 
century. During that time, the United States and Russia have 
cooperated on important matters, like we were allied in our 
fight against the Nazis 60 years ago, and our fight against 
terrorism today.
    The reality is, of course, that the United States and 
Russia do not and have not always seen eye-to-eye on important 
international concerns. The good news, however, is that our 
leaders are no longer locked eyeball to eyeball, missiles aimed 
in each other's directions waiting for one to blink.
    My goal as a member of the United States House of 
Representatives is to do all that is possible to move the 
relationship toward the end of the spectrum that involves 
bilateral and multilateral cooperation. I am hopeful that we 
are headed in that direction despite the many, many challenges 
that remain.
    In fact, on some of the day's most urgent concerns we may 
be getting closer to an agreement. Yesterday's press reported 
the Russian Foreign Minister said Russia is ready to endorse a 
U.N. Security Council statement or resolution backing Kofi 
Annan's Syrian peace mission.
    It has more than two centuries for the United States to 
achieve the imperfect form of democracy by which we govern 
ourselves today. As far as I'm concerned, U.S. democracy is 
still a work in progress. Any African American would agree. We 
look at a case that's happening now in Florida. Any American 
woman would agree that we are still a democracy in progress.
    In less than 100 years Russia has emerged from the grim 
control of czars and dictators to a democratic rule, though it 
is certainly imperfect, and at times even at risk. Let's be 
realistic, the Russian democracy is a work in progress. Realism 
does not mandate that we ignore or make excuses for serious 
shortcomings of our partners, quite the opposite. It means we 
address them.
    In the interest of Russian democracy and the welfare of the 
Russian people it is our responsibility not to disengage from 
Russia, not to turn our backs on them because of our own 
domestic policies. We have a tremendous opportunity to deepen 
our engagement with Russia to the benefit of U.S. businesses, 
U.S. jobs, and Russian Rule of Law. It is our responsibility to 
take advantage of this opportunity, and I believe granting PNTR 
to Russia is one of the most important ways to encourage and 
support improvements in the Rule of Law. The U.S. has worked 
for nearly 25 years to that end by assisting Russia's WTO 
accession process. We shouldn't pull back now.
    In closing, I'd like to submit for the record several 
documents that the committee should consider, the U.S. Chamber 
of Commerce Russia PNTR Premier, letters from prominent members 
of Russian civil society and opposition leaders that want to 
see Jackson-Vanik lifted, and a letter from 171 U.S. companies 
that are ready to take advantage of Russia's WTO accession.
    Chairman Ros-Lehtinen. Without objection subject to the 
length limitation in the rules.
    Thank you, Mr. Meeks.
    Mr. Smith is recognized for 1 minute.
    Mr. Smith. I want to thank you, Madam Chair, for holding 
this very timely hearing on Russia.
    The Russian Government has on many occasions accepted and 
even solemnly agreed that issues of human rights and the Rule 
of Law are of international concern and do not belong 
exclusively in the realm of internal affairs; yet, the same 
Russian Government never tires of accusing our Government of 
meddling when we raise human rights issues.
    At this moment, allow me to touch on one issue. While the 
war in Chechnya no longer rages the situation on the ground 
there and across the Northern Caucuses is far from settled. 
Journalists and activists in this region continue to be killed, 
disappeared, beaten, or forced to flee for their lives, so we 
have very little credible information on what is going on 
there. I look forward to hearing our witnesses' assessment of 
that situation and their suggestions for Congressional action. 
I yield back.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Deutch is recognized.
    Mr. Deutch. Thank you, Madam Chairman, Ranking Member 
Berman for holding today's hearing.
    There is no doubt that the U.S.-Russia relationship is 
facing its share of challenges. Russia is facing domestic 
challenges as the aftermath of the December parliamentary 
elections followed by the re-election of Vladimir Putin has 
spurred opposition protest, the strength of which will likely 
be determined in the coming months. It's my hope that Russia's 
leaders choose to meet these challenges with respect for human 
rights and the democratic process.
    Like most of my colleagues, I remain seriously concerned 
about Russia's sale of weapons to Assad's forces in Syria, and 
it's outrageous obstruction at the U.N. Security Council. 
Russia's insistence on watered-down resolutions at the Security 
Council and at the IAEA on the Iranian Nuclear Program 
undoubtedly sets it at odds with the U.S. and our western 
allies.
    Last summer I joined Chairman Burton in Russia where I had 
the opportunity to discuss at length an area of particular 
concern, the protection of intellectual property rights and 
Russia's failure to sufficiently take on those who traffic in 
the sale of American creative content. I also visited the 
Schneerson Collection, and I believe that we must continue to 
press for these important writings to be returned to the Chabad 
community.
    I look forward to hearing from our witnesses about ways we 
continue to develop our relationship as we simultaneously 
address these challenges, and I yield back, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. Thank you very much, Madam Chairman, and 
thank you for holding this hearing. And first of all, I want to 
say that I was proud to have been on that team under Ronald 
Reagan that brought down the Soviet Union, probably the thing 
I'm most proud of in my whole life. But it is disturbing to me 
that so many decision makers in Russia and in the United States 
are still locked into a Cold War mentality. We constantly hear 
exaggerations of Russia's shortcomings, and using the most 
sinister words to describe imperfections that need to be worked 
on.
    What we are doing this way is we are undermining the broad 
area of cooperation that would be mutually beneficial to our 
two countries, not just economic cooperation but also in our 
national security cooperation in dealing with China, which is a 
major threat to both of our countries, and dealing with radical 
Islam which, of course, is a threat to both of our countries.
    I am heartened yesterday by the Russian Foreign Minister's 
statement that they may be cooperating with us in providing 
supplies to our people in Afghanistan. That's the type of 
cooperation we need. Let's reach out to the Russians rather 
than punching them in the nose all the time.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman. And I certainly 
take our colleague's remarks just now to heart, but I think we 
have a difficult challenge here. I think that it's vitally 
important, frankly, that the United States and Russia work out 
a modus vivendi that works for both of us, and that hopefully 
adds to international security, whether it be terrorism, 
whether it be Middle East peace process, whatever.
    But I think we can't do that by glossing over some of the 
stark differences and some of our legitimate concerns about the 
nature of the Russian Government and its polity, and its 
foreign policy. It's hurting us in Syria. We have a legitimate 
reason to be concerned about human rights crackdowns, and 
jurisprudence in Russia. And, frankly, the recent election is 
also of concern in terms of its process and the obvious 
corruption that accompanied it.
    So, I think that we have to assert our values while trying 
to make this relationship work. And I think that's really the 
challenge moving forward. I thank the chair.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Royce is recognized.
    Mr. Royce. The Obama administration I think is wrong when 
it says nothing should replace Jackson-Vanik's repeal. The 
administration's argument is trust us, we'll promote democracy 
and human rights. But as witnesses will testify this morning 
the State Department falls far short.
    It's clear that human rights and rule of law legislation 
should follow Jackson-Vanik repeal, in my opinion. For example, 
in 2008 Sergei Magnitsky uncovered evidence of police 
corruption and embezzlement. The police put him in prison. Even 
the Russian Government Human Rights Committee that investigated 
his death found that he was severely beaten and denied 
treatment, and recommended that his prison doctors and 
interrogators be investigated; instead, they were given 
promotions. So, something needs to replace the repeal of 
Jackson-Vanik that's focused on the rule of law in Russia.
    Thank you. I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Madam Chair, and thank you 
witnesses.
    I, like many Americans, grew up during the Cold War. And in 
1991 we greeted the collapse of the Soviet Union with great 
relief. I've had the occasion to visit Russia seven times, 
Georgia once, and six times all on business. I've had firsthand 
knowledge trying to do honest business with partners like PNG 
and American Entertainment Companies to get a reasonable deal 
done. It never worked, but I did get some firsthand knowledge 
and some almost unbelievable experiences in Russia and Georgia.
    The disappointment that there is no Rule of Law, that there 
is no system where people can rely on their courts and justice 
is most disappointing. And I think this is the way Mr. Putin 
likes it, crony capitalists stocked with ex-KGB men, industrial 
oligarchs all combining to make this system unworkable.
    I look forward to hearing what you have to say. Thank you. 
I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Chabot is recognized.
    Mr. Chabot. Thank you, Madam Chair.
    The modern American-Russian relationship is an important 
one and should be a constructive one, and a mutually beneficial 
one. This is particularly true when one considers how far we've 
come since a decade's long Cold War when we were on opposite 
sides on virtually every issue, and for the most part bitter 
rivals. Unfortunately, as my colleagues on both sides of the 
aisle have already referred to and indicated, and I would agree 
with, Russia, particularly with Putin continuing to pull the 
strings is a very challenging partner.
    True democracy continues to be suppressed, human rights and 
Rule of Law are too often an afterthought, and their actions 
around the globe especially with respect to Syria and Iran are 
particularly unhelpful; in fact, downright infuriating.
    I look forward to hearing from the panel members on how we 
should deal with this matter. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, and I thank all of the 
members, including Mr. Modus Vivendi for sharing that insight 
with us.
    We're not going to forget that any time soon are we, Mr. 
Chandler?
    I'd like to introduce our witnesses this morning. We are 
very excited to have an excellent panel of experts on the issue 
of Russia. David Kramer, we'll begin with him, is the president 
of Freedom House. He joined in October 2010. We all know him in 
his previous slot as Assistant Secretary of State for 
Democracy, Human Rights and Labor from March 2008 to January 
2009. He was also Deputy Assistant Secretary of State for 
European and Eurasian Affairs where he was responsible for 
Russia, Ukraine, Moldova, and Belarus, as well as regional non-
proliferation issues. Previously, he served as a professional 
staff member in the Secretary of State's Office of Policy 
Planning. Welcome.
    We will then hear from William Browder, who is the founder 
and CEO of Hermitage Capital Management. Mr. Browder was the 
largest foreign investor in Russia until 2005 November, where 
he was suddenly denied entry to the country and declared a 
threat to national security by the Russian Government.
    In recent years, he has devoted much of his effort to 
promoting the cause of Sergei Magnitsky, who was brought up by 
Mr. Royce a few minutes ago, a lawyer working for him who while 
investigating high-level corruption was arrested in Moscow in 
2008 and later died in prison. Welcome.
    Next we will hear from Steven Pifer, who is the senior 
fellow at the Brookings Center on the United States and Europe, 
and director of the Brookings Arms Control Initiative where he 
focuses on arms control, Russia and Ukraine.
    From 2001 and 2004 he served as Deputy Assistant Secretary 
of State in the Bureau of European and Eurasian Affairs with 
responsibilities for Russia and Ukraine. He also served as a 
U.S. Ambassador to Ukraine from 1998 to 2000, and as a Special 
Assistant to the President and Senior Director for Russia, 
Ukraine, and Eurasia on the National Security Council from '96 
to '97. Welcome, Mr. Ambassador.
    And last we will hear from Leon Aron, who is the resident 
scholar and director of Russian studies at the American 
Enterprise Institute. Dr. Aron earned his bachelor's degree 
from Moscow State Institute and his Ph.D. from Columbia 
University. He is the author of many books, articles and essays 
including the First Scholarly Biography of Boris Yeltsin. His 
latest work is the forthcoming book entitled, ``Roads to the 
Temple, Memory, Truth, Ideals and Ideas in the Making of the 
Russian Revolution,'' which will be published by Yale 
University Press this spring. Congratulations. And we will 
start with Mr. Kramer. Thank you.

STATEMENT OF THE HONORABLE DAVID J. KRAMER, PRESIDENT, FREEDOM 
                             HOUSE

    Mr. Kramer. Madam Chair, thank you very much. Thanks for 
the opportunity again to appear before this committee.
    When we talk about this, I think it's very important to 
distinguish Russian's leadership and officialdom from the rest 
of Russia. The leadership I would describe as thoroughly 
corrupt, rotten, and rotting. And that kind of leadership, I 
would argue, poses severe obstacles for the kind of cooperation 
we would all like to see in U.S.-Russia relations.
    Russian officials from the very highest levels to the 
lowest ranks have become unbelievably greedy over the years and 
view the State's coffers and assets as their own personal 
trough. Personal enrichment, the get it while you can kind of 
attitude, has become the reason to serve in government for many 
officials. The INDEM think tank in Russia estimates that 
corruption costs the economy somewhere on the order of three 
hundred to $500 billion a year out of a GDP of $1.5 trillion.
    A growing number of Russians talk about emigrating from 
Russia as a result of the pervasive corruption. Capital flight 
last year was $84 billion, and in January alone of this year it 
was $13.5 billion. All of this, I would argue, explains why Mr. 
Putin has no willingness to relinquish his grip on power.
    Thus, it isn't surprising that the regime shows total 
disregard for human rights and democracy, and the human rights 
of its own people, or people in other countries. And the 
evidence of that, I would argue, comes with the arms sales to 
the regime in Syria.
    For more than a decade, Freedom House has been documenting 
the decline in democracy and human rights in Russia, a period 
that overlaps with Mr. Putin's reign, and Russia is deemed no 
free in our Freedom in the World and Freedom of the Press 
reports.
    The lack of accountability for human rights abuses and the 
grossly politicized legal system create an environment wherein 
such abuses are not only condoned but they're expected almost 
as a demonstration of loyalty to the regime. Essentially, 
Russian leaders for more than a decade have shown no respect 
for human rights, accountability, independent institutions, 
justice, and they refuse to allow a viable opposition to take 
root. They create an environment of impunity. And we've already 
seen a crackdown since the March 4th selection, not least the 
denial of a rally calling for justice in the murder of Sergei 
Magnitsky that's supposed to take place this weekend.
    Vladimir Putin heads a leadership, I would argue, that is 
assertive, arrogant, and aggressive on the one hand but 
paranoid, insecure, and hypersensitive on the other. And this 
is a dangerous and volatile combination. It explains why Putin 
cannot leave power. In a sense he's become hostage to his own 
system. He's the glue that holds it together, and were he to 
step down, he and those around him who have benefitted so 
handsomely from their positions of power would likely have to 
face investigations, if not worse. They have too much at stake 
to allow some new person to be elected President of the 
country.
    And it's the combination of arrogance and paranoia, I would 
argue, that explained the decision last September 24th when 
Putin and Medvedev announced they would switch positions. It 
explains why elections are predetermined before they take 
place. It explains why opposition parties, such as PARNAS, or 
opposition figures such as Grigory Yavlinsky are not allowed to 
complete fairly in the elections, or compete at all for that 
matter.
    And the paranoid side of Putin, I would say, also leads him 
to blame the United States and even Secretary of State Hillary 
Clinton for instigating last December's protest. And this is 
not just a function of Putin's paranoia, but of a likely 
perception of an emerging threat that he faces within his own 
country, and he wants to finger the United States and scapegoat 
us. And since his early years as President, Putin has always 
blamed the west for threatening Russia, rather than face the 
shortcomings of his own leadership.
    Now, without giving in to despair, as a number of you have 
pointed out, there have been some positive developments, not 
least the impressive turnouts in December and February of this 
year protesting the rigged elections for the Duma last December 
and the Presidential elections. And I think these protests 
have, in fact, been a source of inspiration and optimism as we 
look at Russia.
    The protests were really the loudest and clearest 
manifestations of ordinary Russians' increasing frustration 
with the lack of dignity and violations of their rights which 
have become routine under Putin. And they've said, essentially, 
enough is enough.
    And I would argue that there are three important 
conclusions to draw from the election; that Putin may claim 
victory as he did on March 4, but he has lost his unquestioned 
sense of legitimacy as more and more Russians suspect that he 
remains in power through illegitimate means. He's also lost his 
all-important aura of invincibility. That's been badly damaged. 
And finally, he has seen his use of fear eroded as more 
Russians come out in protest against his rule.
    Now, the future of Russia is going to be decided by 
Russians but there are things for the United States to do, not 
least is to speak about the situation on the ground inside 
Russia very candidly. And I commend Secretary Clinton for her 
remarks after the Duma elections last December which obviously 
got Mr. Putin's attention.
    I would like to see similar kinds of words coming from the 
President. The President, after all, has invested a great deal 
in developing U.S.-Russia relations, and yet his silence since 
a very good trip to Moscow in July 2009, silence when it comes 
to democracy and human rights concerns in Russia, I think has 
been unfortunately rather deafening.
    There is something for the Congress to do, I would argue, 
and I will end with this, Madam Chair, and that is to move 
forward on the Sergei Magnitsky Rule of Law Act. I strongly 
recommend its passage, and I know Bill Browder will talk about 
this more. Thank you very much.
    [The prepared statement of Mr. Kramer follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Browder.

 STATEMENT OF MR. WILLIAM F. BROWDER, CHIEF EXECUTIVE OFFICE, 
                  HERMITAGE CAPITAL MANAGEMENT

    Mr. Browder. Madam Chairman, members of the committee, 
thank you very much for inviting me to speak today.
    The story that I'm going to share with you today will leave 
you in no doubt that Russia doesn't function as a normal state 
as we know it. It functions more akin to a criminal enterprise. 
The story that I want to tell you is about Sergei Magnitsky, 
who was my lawyer, who died in horrific circumstances in 
Russian state custody 2\1/2\ years ago. It is my duty to his 
memory and to his family to make sure that justice gets done in 
this case, and that this story gets told widely across the 
world.
    The story starts out 15 years ago. I moved to Russia and 
set up an investment fund called Hermitage Capital Management, 
which eventually grew to become the largest foreign investment 
fund in the country. In the process of investing, I learned 
that all the companies I was investing in were losing money 
through massive corruption, and I decided to fight the 
corruption by exposing it through the international media.
    As you might imagine, this created a number of enemies and 
as you mentioned in my introduction, I was expelled from the 
country, I was declared a threat to national security, and 
that's when the real trouble began.
    In 2007, my offices were raided by 25 police officers from 
the Interior Ministry of Moscow, which is the police 
department. They took away all of our corporate documents, and 
those corporate documents were then used to expropriate our 
companies. And then through a very complicated scheme, they 
then used those corporate documents to steal, not from us but 
from the Russian State, $230 million of taxes that we had paid 
in the previous year.
    I went out and hired a young lawyer named Sergei Magnitsky 
who worked for an American law firm called Firestone Duncan, to 
investigate. And Sergei went out and investigated, and found 
documentary evidence proving the involvement of high-level 
officials in the theft of the $230 million.
    Instead of turning a blind eye as many others in Russia 
would have done, he decided to testify against the officers, 
and he testified against them in October 2008. One month after 
his testimony he was arrested by the same people he had 
testified against, put in pretrial detention, and then tortured 
to withdraw his testimony. They put him in cells with 14 
inmates and eight beds and left lights on 24 hours a day in 
order to sleep deprive him. They put him in cells with no heat 
and no window panes in December in Moscow and he nearly froze 
to death. They put him in cells with no toilet, just a hole in 
the floor where the sewage would bubble up.
    After 6 months of this, he became ill, he lost 40 pounds, 
he developed pancreatitis and gall stones and he was prescribed 
to have an operation on the first of August, 2009. One week 
before the operation his jailers came to him with a Faustian 
bargain. They said if you sign the following confession saying 
you stole the $230 million and you testify against Bill 
Browder, me, then you can then have the medical attention you 
need. In spite of the unbearable physical pain, Sergei refused 
to sacrifice his integrity, and didn't sign the paper. As a 
result, they abruptly moved him to a prison called Butryka, 
which is known around Russia as being one of the toughest and 
most unpleasant prisons in Russia. And most significantly for 
Sergei, Butryka had no medical facilities whatsoever.
    And at Butryka his health completely broke down. He went 
into constant, agonizing, ear-piercing pain. He wrote 20 
different requests for medical attention. All of them were 
rejected by the authorities. And on the night of November 16th, 
2009, Sergei Magnitsky went into critical condition. Only then 
did they move him to a prison that had an emergency room, but 
instead of treating him they put him in an isolation cell, 
chained him to a bed and allowed eight riot guards with rubber 
batons to beat him for 1 hour and 18 minutes until he died. He 
was 37 years old.
    How do we know all this? We know it because Sergei did 
something very unusual, he documented it all in 450 complaints 
during his 358 days in detention. And as a result of that, we 
have the most well-documented, human rights abuse and 
extrajudicial killing case in the history of Russia.
    Now, this is a tragic case and a heartbreaking case for me 
and his family, and for anyone around him, but the reason why 
this is politically significant is not what they did to him. 
This happens all the time, it's the cover up that the 
government embarked on afterwards.
    The Russian Government on the day he died, said that he had 
died of natural causes. They said they weren't aware that he 
was ill. They've since exonerated all of the police officers, 
Interior Ministry officials, prosecutors and judges from any 
liability. Some of them have been promoted, some of them have 
been given state honors.
    To add insult to injury, instead of prosecuting anyone who 
tortured or killed him, they're now prosecuting Sergei himself. 
Two and a half years after his death, they're now prosecuting 
Sergei Magnitsky for the trumped up crimes that they arrested 
him for in the first ever posthumous prosecution in Russian 
history. Not even Stalin did that.
    It's clear that there's no possibility of justice in Russia 
for Sergei's case and many, many other cases like it, and as a 
result I've sought justice outside of Russia. There are 11 
Parliaments around the world that are now considering visa 
sanctions and asset freezes on the people who killed Magnitsky 
as well as other gross human rights abusers. And most 
significantly, this Congress is also considering the same 
thing.
    I would argue that in the absence of any possibility of 
justice in these cases that something needs to be done, and 
that's the thing that needs to be done. Thank you.
    [The prepared statement of Mr. Browder follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much, sir. Thank you 
for that powerful testimony.
    Mr. Ambassador.

   STATEMENT OF THE HONORABLE STEVEN PIFER, DIRECTOR OF THE 
   BROOKINGS ARMS CONTROL INITIATIVE, BROOKINGS INSTITUTION 
              (FORMER U.S. AMBASSADOR TO UKRAINE)

    Ambassador Pifer. Thank you, Madam Chairman, Representative 
Berman, distinguished members of the committee. Thank you for 
the opportunity to speak today. I have submitted a written 
statement for the record and will summarize it now.
    The committee is hearing about democratic regression and 
pervasive corruption in Russia, and troublesome aspects of 
Russian foreign relations. I would like to place this in the 
context of broader U.S. policy. The goal of Washington's policy 
toward Russia should be to cooperate and make progress on those 
issues where interests coincide, while protecting American 
positions and managing differences where interests diverge.
    The Obama administration's Reset Policy has, by any 
objective standard, improved the U.S.-Russia relationship since 
2008. The new START Treaty, expanded transit rights through 
Russia to Afghanistan, and Russian support for an arms embargo 
on Iran all advance U.S. interests. At the same time, 
Washington and Moscow disagree on a number of issues. The 
bilateral relationship will for the foreseeable future combine 
a mix of questions on which the countries agree, and questions 
on which they do not.
    On May 7, Vladimir Putin returned to the Russian 
Presidency. As you noted, Madam Chairman, Mr. Putin held the 
real power over the past 4 years; thus, his return should not 
entail a change in the strategic course of Russian foreign 
policy, though the tone may change.
    Mr. Putin will have to confront domestic political, and 
economic challenges that may affect his foreign policy choices. 
We will have to see what that means in practice. It remains in 
the U.S. interest to engage Russia to advance American policy 
goals. In doing so, the United States will at times have to be 
prepared to take account of Russian interests if it wishes to 
secure Moscow's help on issues that matter to Washington.
    Looking forward, the United States should pursue further 
reductions of nuclear arms including non-strategic nuclear 
weapons, continue to explore a cooperative NATO-Russia 
arrangement on missile defense, and seek jointly to deal with 
proliferation challenges posed by North Korea and Iran, areas 
in which Washington and Moscow have found common ground in the 
past.
    Washington should explore ways to increase trade and 
investment relations with Russia. While Moscow's decisions 
about its investment climate are the most important factor in 
this regard, Congress should now graduate Russia from the 
provisions of the Jackson-Vanik amendment. Russia long ago met 
the requirements by opening up freedom of emigration. Its 
continued application provides no leverage with Moscow, will 
hurt American business, does nothing for the opposition in 
Russia and degrades the value of the threat of Congressional 
sanctions in the future.
    Where interests diverge, the U.S. Government should make 
its case, encourage change in Russian policy and be prepared to 
manage differences that persist. Washington and Moscow, for 
example, disagree sharply over Syria where the Russian 
Government has misguidedly attached itself to an autocrat whose 
days may well be numbered. U.S. diplomacy should seek to 
persuade Moscow to adopt a different course.
    U.S. and Russian interests differ in the post-Soviet space, 
the region most likely to generate a major crisis in bilateral 
relations. Moscow seeks to gain inordinate influence over its 
neighbors, the United States rejects that notion of a sphere of 
influence and supports the right of each post-Soviet state to 
choose its own course. Some tension between these two 
approaches is inevitable. It would be wise for Washington and 
Moscow to consult closely and be transparent on their policies.
    One other difficult issue is the democracy and human rights 
situation in Russia. While Russian citizens today enjoy 
considerably more individual freedoms than they did during 
Soviet times, they have fewer freedoms, are more subject to 
arbitrary and capricious state action, and have less political 
influence than during the 1990s. This regression is sadly 
epitomized by the flaws in the recent parliamentary and 
Presidential elections, and the appalling treatment of Sergei 
Magnitsky.
    Democratic and human rights values are properly a part of 
U.S. foreign policy, and it is difficult to envisage a 
bilateral relationship with Russia becoming truly normal while 
these problems persist. U.S. officials should make clear 
American concerns publicly and privately with Russian 
officials. The U.S. Government should, as it is doing, maintain 
a policy of denying visas to Russian officials associated with 
the Magnitsky case. And this is a tool that should be 
considered in other egregious cases.
    Washington should examine other ways to support the growth 
of a robust civil society in Russia. U.S. officials should 
maintain contact with the full spectrum of Russian society, and 
Members of Congress themselves should engage directly with 
their counterparts in the Russian legislature on these 
questions.
    Washington should bear in mind, however, that its ability 
to affect internal change in Russia is limited at best. 
Hopefully, the opposition movement that is now emerging will 
strengthen and grow into a vehicle through which ordinary 
Russians can gain a greater say in their politics and 
governance. The United States can encourage this on the margins 
but this is an issue that the Russians themselves must drive.
    Madam Chairman, the U.S. Government should raise its 
democracy and human rights concerns and challenge Russia where 
positions on other interests diverge. At the same time, the 
United States should continue to work with Russia to advance 
American interests, and to build a more positive sustainable 
relationship. Doing so will increase American influence with 
and in Russia. Thank you.
    [The prepared statement of Ambassador Pifer follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much.
    Dr. Aron.

  STATEMENT OF LEON ARON, PH.D., DIRECTOR OF RUSSIAN STUDIES, 
                 AMERICAN ENTERPRISE INSTITUTE

    Mr. Aron. Thank you very much, Madam Chairman, Mr. Berman, 
distinguished members.
    Among the top, the very top priorities of U.S. Foreign 
Security policies, I doubt there are many, if any, objectives 
more important than a free democratic, stable, and prosperous 
Russia, peace at long last with its own people, its neighbors, 
and the world.
    Assisting the emergence of such a Russia is or should be 
among the top U.S. geostrategic goals to which shorter terms 
policy should be attuned and adjusted. Always a hard job 
requiring skill, patience, perseverance, and a great deal of 
expertise.
    Of late, this task has gotten even more complicated. On the 
one hand we have seen, and will continue to see without a doubt 
in the coming months and years a brilliant outburst of civic 
activity, a quest for democratic citizenship by the tens of 
thousands of Russians who demonstrated in the country's largest 
cities and by the millions who think like them. The civil 
rights movements will eventually crystallize politically, in 
effect another attempt at a democratic breakthrough following 
Russia's revolution of August '91.
    On the other hand, after effectively 12 years in power, the 
Russian President, turned Prime Minister, turned President has 
engineered an election from which he barred every leader of 
pro-democratic opposition and limited the exposure of the 
majority of the Russians who get their news mostly from 
television to what a leader of the protestors and one of 
Russia's most popular writers, Boris Akunin, called Shameless 
Propaganda of Vladimir Putin's candidacy.
    Fresh from the spectacular and well-documented 
falsification of the results of the previous election, the 
December 4th parliamentary election, the wholly-owned Kremlin 
subsidiary by the name of the Central Electoral Commission 
stood by to draw as they say in Russia whichever number the 
boss ordered.
    Among the many troubling aspects of this so-called 
Electoral Campaign was anti-American propaganda, the likes of 
which we may not have seen since before 1985. Troubling, but 
hardly surprising, just as all politics is local, so in the end 
much of foreign policy is domestic politics. And whenever 
domestic politics is dicey the Kremlin, like all other 
authoritarians resort to a tried and true tactic, alleged 
external danger to rally the people around the flag, to smear 
and marginalize pro-democracy opposition as agents of enemies 
from abroad.
    Putin's enemy of choice has always been the United States; 
hence, Secretary Clinton as a signaler to anti-Putin 
opposition. Hence, also, a number of policies that have already 
been mentioned so I'll only go through them very briefly.
    It's been almost 2 years since Russia has criticized--has 
supported U.S. and Europe sanctions against Iran. Of late, it 
deplored these sanctions, unilateral sanctions aimed at Iranian 
oil exports. This past November Russia condemned the 
International Atomic Energy report that provided further 
evidence of Iran's Nuclear Weapons Program.
    Moscow continues to sell arms to Bashaw al-Assad's 
murderous regime even as it butchers its own citizens as the 
world watches. Along with China, Russia has vetoed two Western 
and Arab League-backed U.N. Security Council sanctions, 
resolutions threatening sanctions against Damascus and calling 
for Assad to step down.
    The U.S. Ambassador to the United Nations, Susan Rice, 
called the February 4th veto outrageous and accused Moscow of 
standing with a dictator. Yet as late as March 13th, a senior 
Russian official confirmed that Moscow had no intention of 
rethinking its weapon sales and military cooperation with 
Syria.
    Finally, despite untold hours of briefings, including at 
the highest level of U.S. Government, to demonstrate that 
Moscow worries about the U.S. missile defense in Europe are 
totally unfounded, this past November on national television 
President Dimitri Medvedev reiterated an earlier threat to 
station short-range ballistic missiles in the Kaliningrad 
region, and even to withdraw from the New Start Strategic Arms 
Treaty if the U.S. proceeds with the missile defense 
deployment.
    So, what next for Russian foreign policy? Of course, 
nothing is certain in these types of predictions, but domestic 
politics may again provide some solid clues. The regime's post 
election strategy thus far has included a few concessions to 
the pro-democracy protestors such as the nominal return of the 
gubernatorial elections, and the recent registration of a 
Liberal Republican party of Russia. But a stronger and broader 
trend is clearly the one of authoritarian consolidation 
including selective persecution of some key leaders of the 
protestors, the reestablishment of the Kremlin's unchallenged 
control of television, and anti-American propaganda.
    If this strategy which reminds one of the title of Lenin's 
article ``One Step Forward, Two Steps Backward,'' continues to 
guide the Kremlin, then Russia is likely to maintain an 
assertive anti-U.S. posture in order to shore up its 
increasingly shaky legitimacy at home by lending as much 
credence as possible to the narrative of protecting the 
motherland against the scheming enemies of Russia on the 
outside and the fifth columnists from within. And as a result, 
occasional gestures such as goodwill toward the West and the 
United States, especially in the areas of deep security 
concerns for Russia such as Afghanistan, are going to be few 
and far between.
    I wish I had a more cheerful forecast for U.S.-Russian 
relations for the remainder of this year but the preponderance 
of evidence points to a chill with possible frost on the 
ground.
    Chairman Ros-Lehtinen. Thank you.
    [The prepared statement of Mr. Aron follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Aron. Madam Chairman, I would like to enter into the 
record two articles dealing with the domestic roots of Russian 
foreign policy, one from 2008 titled----
    Chairman Ros-Lehtinen. Thank you. Without objection subject 
to the length limitation and the rules.
    Thank you so much, and thank you to all of our witnesses 
for excellent testimony.
    I will start the round of questions where each member will 
have 5 minutes to ask questions. I wanted to focus on the Assad 
regime in Syria, and wanted to ask you, you all discussed it, 
but why is Russia so aggressively supporting that regime? What 
benefit, what is the end game? How does Russia see this playing 
out to benefit the nation? What are we to make of reports that 
Moscow has sent elite troops, units of Russian Marines, special 
operations forces to Syria in order to conduct antiterrorism 
missions in the country, whatever those may be? And if you 
could comment on news that we've read lately that Russian 
experts upgraded the long range radar systems in Syria in order 
to help Iran with an early warning system in event of an attack 
on its nuclear facilities. And, also, as Russia appears to be 
actively supporting both Iran and Syria, would you agree that 
our efforts to gain Russian cooperation regarding these 
countries have been a true failure? We'll start with Mr. 
Kramer.
    Mr. Kramer. Madam Chair, I think these are like-minded 
regimes, and they come to the aid and protection of each other. 
I think Mr. Putin was scared when he saw what happened to Ben 
Ali, and Mubarak, and Qaddafi, and he doesn't want to see the 
same thing happen to Assad in Syria. These kinds of leaders 
need to stay together.
    Russia has not only vetoed the U.N. Security Council 
Resolution, as you and others have indicated, they are selling 
arms to the Syrian regime which the Syrian regime is in turn 
using to slaughter its own people. Russia has a base in Syria. 
Russia has continued to provide military support.
    I'm afraid this doesn't come as a surprise. When you have 
the kind of regime you have in Moscow, I think it tries to come 
to the aid and support of a regime like we see in Damascus.
    Chairman Ros-Lehtinen. Thank you. Mr. Browder.
    Mr. Browder. The Russian Government and the Russian State 
functions off the back of oil. That's the main fuel that fuels 
the economy. The Soviet Union ended when oil prices went down 
to $10 a barrel and Russia is flexing their muscles with oil at 
$120 a barrel.
    It's in their interest to have instability in the Middle 
East because it keeps oil prices high, and so Russia is not 
playing a game of--they're not playing sort of good world 
stewards when they're voting at the Security Council. They're 
making sure that they can spoil the situation so oil prices 
stay high. And I think that that's a very important part of 
their calculus.
    Chairman Ros-Lehtinen. Excellent point. Ambassador.
    Ambassador Pifer. I think Russian policy toward Mr. Assad 
has four reasons. First of all, they see him as an ally, 
unfortunately, and they don't have many allies left. They're 
reluctant to throw him over. A second part of this is payback 
to the West over Libya, where they believe that the West took a 
U.N. Security Council Resolution and stretched it in its action 
in Libya. Third, and I think this is a bit more legitimate 
reason, is they don't know what comes after Mr. Assad. And I 
think that is a legitimate concern.
    Finally, there is a rather paranoid view here, which is if 
you look at how the Russians talk about Syria it fits into a 
pattern of how they talked about the revolutions in Georgia, 
Ukraine, Tunisia, Egypt, that these aren't indigenous 
movements, that they're somehow directed, funded by the United 
States, and that they're somehow directed against Russia. And 
it seems very paranoiac, but when you look at what they say in 
Moscow, they say it so many times that you think they really 
must believe it.
    I think the Russian policy is wrong. It's also misguided 
and self-defeating. It's going to position them badly with the 
Arab world, and if and when Mr. Assad goes down it will 
position Russia badly with his successors.
    Chairman Ros-Lehtinen. Thank you. Dr. Aron.
    Mr. Aron. Very little to add to what's been said by my 
colleagues. I think it's one of the clearest cases of the uses 
of foreign policy for domestic politics. I think Vladimir Putin 
feels that the support for these types of regimes, and not so 
much specific support for specific regimes but opposing the 
U.S. and the West in the areas of not just strategic but moral 
concern is somehow bolstering his domestic political standing.
    Chairman Ros-Lehtinen. Thank you very much. Excellent 
answers. Thank you.
    Mr. Berman is recognized.
    Mr. Berman. Thank you very much. Hopefully, a quick 
response. Does the future of the Reset impact at all about 
whether Medvedev is made Prime Minister or not, or is that sort 
of irrelevant to the future of U.S.-Russia relations?
    Mr. Kramer. Mr. Berman, I would say it's irrelevant whether 
Medvedev becomes Prime Minister or not, and I don't think the 
Reset will have any bearing on that.
    Ambassador Pifer. I would second that. I think that Mr. 
Medvedev will become Prime Minister. I think Mr. Putin will 
make that appointment. How long he remains in the position will 
depend on his success at grappling with the very difficult 
economic challenges that Russia faces, but I think that really 
is not related to the Reset question.
    Mr. Aron. I think Putin has completely destroyed Medvedev 
as a political figure on the 24th of September when speaking to 
the United Party, United Russia Party. He put his arm around 
him and essentially said I had this boy warming up the seat for 
4 years. And, in fact, when the protestors were polled, both by 
the survey firms but also anecdotally that moment to many of 
them was one of the most shameless moments in Russian political 
history, and propelled them to protest 2 months later.
    Mr. Berman. Thank you. I want to get to the Magnitsky 
issue. And, Mr. Browder, I mean, I've read about this a lot, 
but your testimony was--put it all together in its most graphic 
sense.
    We have done a lot of--with respect to Iran, but now with 
respect to Syria, other places, we have country-specific 
designations of where we ask the State Department to name human 
rights abusers either generally, I'm not sure before in a 
specific case but maybe, and asset freezes. Does it makes sense 
to do this in a more general sense rather than specifically as 
to Russia, specifically about Magnitsky, to essentially set a 
process where we expect the appropriate agencies in the State 
Department to compile lists of human rights abusers in cases 
that we learn about where they're denied visas and where assets 
are frozen, or is doing it this way, specifically about Russia, 
specifically about this case, the preferred way to go, or 
should we be moving ahead on graduating and put this aside for 
now?
    Mr. Browder. The answer is that this initiative, asset 
freezes and visa sanctions, is not just specifically for 
Magnitsky. It started out specifically for Magnitsky in the 
U.S. House of Representatives when I first testified in front 
of the Lantos Human Rights Commission, and it was then put into 
the Senate as well, just on Magnitsky. And what happened was 
that many, many other victims of human rights abuse in Russia 
came forward and said this is the most powerful tool that we've 
ever seen to challenge the impunity that's been washing over 
our country. And as a result, the decision was made by Senator 
Cardin, McCain, Lieberman and Wicker to broaden the 
legislation, not just for Magnitsky, but for all gross human 
rights----
    Mr. Berman. But still Russia-specific.
    Mr. Browder. Well, it doesn't say so in the legislation.
    Mr. Berman. Oh.
    Mr. Browder. I believe just--and this is my personal 
belief, that we found the new technology for fighting impunity 
in the rest of the world. Many, many of these crimes are done 
for money, and these people like to spend their money and 
travel, and enjoy the fruits and freedoms of the West. And when 
they can't, that touches them in the most profound way.
    Mr. Berman. Anybody else have a 30-second thought on this?
    Mr. Kramer. Mr. Berman, if I could, I actually support 
graduating Russia from Jackson-Vanik, but I would argue only as 
a package with the passage of the Magnitsky bill. I think it 
would be a major mistake to grant Russia graduation without 
bringing up to speed legislation that deals with current day 
Russia's problems, and I think that's exactly what the 
Magnitsky case does, or the Magnitsky legislation.
    If I could, also, there are two--there's been a lot of 
confusion about the position of opposition leaders when they 
issued a statement about a week ago in support of lifting 
Jackson-Vanik for Russia. There are two articles, if I may, 
Madam Chair, suggest entering into the record by Gary----
    Chairman Ros-Lehtinen. Without objection subject to the 
length.
    Mr. Kramer [continuing]. Both advocating very strongly for 
Magnitsky replacing Jackson-Vanik.
    Mr. Aron. I think the Russian--the people who put their 
bodies on the line protesting in Russia know better, and they 
all while supporting, definitely supporting pulling of the 
Jackson-Vanik, and have also advocated very strongly some sort 
of legislation that both will show a moral concern by the 
United States about the human rights abuses both in Russia and 
the world, but also target specific individuals whom Russian 
justice system simply is not capable of punishing.
    Ambassador Pifer. I would just add that I think that visa 
and financial sanctions have proven effective in the past. Dave 
and I worked on these years ago, for example, with regards to 
Belarus, and I think that they have had an impact.
    That said, I would urge that if the route is chosen as a 
piece of legislation that Congress write the legislation so 
that the sanctions are lifted, in fact, when the behavior is 
adjusted in the way that you wish. I think that's been one of 
the drawbacks of the Jackson-Vanik provision and its 
application to Russia, is 15 years after Russia met the 
requirements it still remains under that sanction.
    Chairman Ros-Lehtinen. Thank you very much. Mr. Smith is 
recognized.
    Mr. Smith. Thank you very much. Let me just--Secretary 
Kramer, you point out that since his laudable speech in July of 
'09 in Moscow in which he spoke about Russia's shortcomings in 
the area of human rights, Obama has been virtually silent on 
Russia's deteriorating political situation. Very strong 
criticism, and unfortunately in a whole host of human rights 
abuses around the world, including China; the President has 
been unbelievably silent when it has to come to human rights 
abuses.
    My question, I'd like to delve into the Magnitsky case. You 
know, the administration as best as I can tell, does not just 
believe that the legislation is unnecessary, but as you pointed 
out, they're against it. As you know, the information that was 
leaked, or however it became known, in their analysis makes it 
very clear that the administration believes that the 
Immigration and Nationality Act already bars admission to the 
U.S. of aliens who have engaged in torture, in extrajudicial 
killings.
    Back in 2000, I was the author of the Admiral Nance and Meg 
Donovan Foreign Relations Act of 2000, and we had a specific 
provision in there dealing with making inadmissible, in other 
words, visa bans on those people who engage in a number of 
human rights abuses, including forced abortion in China.
    The problem has been when it's not country-specific nobody 
gets banned, or very few people get banned. For example, under 
the Admiral Nance and Meg Donovan Foreign Relations Act there 
was nobody under the Bush administration coming out of China or 
under the Obama administration who has been told, ``Uh-uh, 
you're not coming here.'' And I've raised that I have a new 
bill in H.R. 2121 that is specifically focused on China because 
as we did with the Belarus Democracy Act. If you don't have 
specific country named, it seems that the administration is 
less enthusiastic about doing what they ought to be doing.
    Now, the administration claims that they have denied visas 
to some people involved in the Magnitsky case. It's unclear how 
durable that is, how expansive it is. But as, Mr. Browder, you 
pointed out, his case has become the most well-documented and 
emblematic case of torture, heavily documented by himself as he 
was going through it.
    So, my question really comes down to the administration. Is 
it your view that they're against it as this leaked document 
would clearly suggest? They talked about fears of retaliation, 
they talked about ambiguous language with regards to the asset 
side of it. It seems to me that's why you put this into place 
so that we'll do our due diligence to ascertain whose assets 
ought to be frozen, as well as who ought to be barred entry 
into the United States.
    So, again, it's like ``Magnitsky Light'' in terms of the 
legislation being supported by the administration which is not 
enough at all. I would hope, as you pointed out, that if the 
MFN were to go forward or the waiving and ending of Jackson-
Vanik, this needs to be part of a package because otherwise, 
unfortunately, we will miss a significant opportunity. We 
didn't do it with China. They got PNTR and they got ascension 
into WTO with no linkage whatsoever to human rights. We created 
the China Commission, and I chair it, but I voted against the 
legislation, frankly, because China is the most, as Mr. 
Rohrabacher said yesterday, the most egregious violator of 
human rights globally. Nothing got better when the trade began 
to become unfettered.
    So, your thoughts further because, again, this document, 
are they against it, as far as you know, the administration? 
Will they veto the legislation, maybe kill it before it ever 
comes out in the Senate or in the House?
    Mr. Kramer. Mr. Smith, first of all, let me express my 
thanks to you for your leadership on human rights issues. When 
I was in the government, your championing of the Belarus 
Democracy Act was invaluable to our efforts to go after people 
in the Lukashenko regime. As Steve Pifer mentioned, both of us 
were involved in that.
    This kind of legislation I think is critical. It is very 
important to go after Russians. And the thing about this is 
that it is very targeted. It doesn't go after the entire 
country. It goes after Russian officials who engage in gross 
human rights abuses, who kill journalists, or lawyers, or human 
rights activists. And if they don't do that kind of thing, they 
won't be on the list.
    And it's also very important, I would argue, not only to 
put them on a visa ban list, but to go after their assets. As I 
mentioned with the capital flight, there was $84 billion in 
capital flight last year. Russian officials don't put their 
ill-gotten gains in Russian banks, they know it's not safe and 
secure. They put them in Western banks, so by going after these 
assets it's critically important.
    You're absolutely right, when China was granted PNTR, the 
China human rights situation did not improve, so graduating 
Russia from Jackson-Vanik won't improve the human rights 
situation.
    Mr. Smith. Is the administration against it?
    Mr. Kramer. My impression is the administration is, based 
on what Ambassador Mike McFaul said last week in several 
different meetings. I had been under the impression the 
administration was moving toward a deal, but McFaul's comments 
last week suggested that they, in fact, were not.
    Chairman Ros-Lehtinen. Thank you very much. Thank you, Mr. 
Smith. Mr. Meeks is recognized.
    Mr. Meeks. Thank you, Madam Chairman.
    You know, for about 20 years, and I'm listening, it's a 
very good hearing. Russia has sought entry into the WTO, and 
for just as long a period of time the United States has 
prioritized Russia's admission to the WTO. So, the first reason 
you ask yourself is why? Just because want to be--no, I think 
it's because the WTO membership required that Russia reform 
some of its law and its legal systems, and reform Russian trade 
policy and practices, and strengthen Russia's Rule of Law. That 
was some leverage that we had to get them to the WTO. And at 
the end of this 20-year path, you know, we see some laws and 
rules that Russia would have to abide by by being in a body 
such as the WTO.
    Now, by granting PNTR I don't think that we in no way can 
endorse or take in, or agree to allow human rights violations, 
and objections, and some of the objectionable, and even some of 
the despicable foreign policies or acts, what is happening on 
the ground in Russia.
    Though, it is by recognizing and taking advantage of an 
improved law in a business climate that we look at one end 
deepening our economic trade the relationship allows because I 
always say that there are two forms of relationships that a 
country has, one is trade, the other is war. I don't like the 
scenario we had going back to the Cold War where we're at one 
another and we're looking at one another, and threatening one 
another, no need in going there. I don't want that--we can 
improve trade relations, then that gives us opportunities to 
move forward.
    However, understanding the struggles that we've had within 
our own country, I admire the people of Russia, especially 
those who are standing up for their civil rights, especially 
those that are standing in the streets, especially those who 
are willing to lose their lives as people stood up in this 
country. And we should stand by them, and we should make sure 
that they are strengthened. But there are two tracks that we're 
taking here from what I see. And I don't want to cut off our 
nose to spite our faces.
    And when I hear people talking about PNTR, that's going to 
hurt. Well, maybe that's the question I'll ask. If denying 
Russia PNTR, is that going to hurt Russia? Because the facts 
that I'm getting in, it's not going to hurt Russia. It's not 
something that makes them change. It'll make us, or put us at a 
competitive disadvantage with our other competitors around the 
world because we're now in a global economy.
    So, I'll start with Mr. Pifer, does that--since Russia will 
be in the WTO this summer, is not granting PNTR, would that 
hurt Russia?
    Ambassador Pifer. Well, first of all, let me say that I 
think getting Russia into the World Trade Organization is an 
American interest because that will force Russia to play by 
trade rules to which most American companies are accustomed. It 
will improve the trade environment there.
    Second, if the United States does not grant Russia 
Permanent Normal Trade Relations status after Russia is in the 
WTO, that will mean that American companies will not be able to 
take advantage of certain WTO trade benefits, or WTO dispute 
resolution mechanisms. So, it'll be the Boeings, the John 
Deeres, it will be American companies that are then sanctioned, 
in effect, because they will not have the full benefits of WTO.
    But having said that, there's no reason why you can't move 
to graduate Russia from Jackson-Vanik, and still take other 
measures to make clear American concerns about human rights 
issues within Russia. I mean, we ought to be able to walk and 
chew gum at the same time and do both. It's not--and it should 
not be--an either/or situation.
    Mr. Meeks. Dr. Aron.
    Mr. Aron. Well, you know, I was really very pleased to hear 
you, and I think these are very related issues, to talk about 
the protest in Russia, civil rights movement. You and I--I've 
written about this. The similarities are incredible. You know, 
look at their slogans, don't lie to us, don't steal from us, 
listen to us, don't step on us.
    Mr. Meeks. Absolutely.
    Mr. Aron. They are against effective disenfranchisement, 
and they are for the equality before law. I think it's 
extremely important for all of us to understand that while you 
can call them political opposition, they're more like civil 
rights movements.
    Mr. Meeks. Absolutely.
    Mr. Aron. And that is both good news for the regime and bad 
news. It's good news because they're not crystallizing 
politically, they're not--you know, you can't really--they have 
trouble developing national leaders, developing a political 
agenda, but the very bad news for the regime, and the good news 
for the world and the people of Russia is that they're deeply 
morally committed. This is a movement for moral renewal.
    Mr. Meeks. Which means the fight will never stop until they 
win.
    Mr. Aron. It's very----
    Chairman Ros-Lehtinen. The fight may stop, but the 5 
minutes brings this to an end.
    Mr. Meeks. Okay.
    Chairman Ros-Lehtinen. Thank you so much. Mr. Dana 
Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Madam Chairman. And, 
again, I think my commitment to human rights is very evident 
and I would, of course, support legislation that would hold 
human rights abusers in Russia or anywhere else, specifically 
aimed at Russia or other countries, I'd be very happy to 
support that.
    But in saying that, I'm really appalled at the double 
standard that we use toward Russia. I mean, Chris mentioned it 
just in passing. I mean, there are no opposition rallies in 
China. There are no opposition parties. There's no newspapers 
that criticize the government. We have people who are being 
arrested for their religion and having their organs--murdered 
and having their organs taken out and sold, and we're not even 
taking that problem seriously. I mean, the double standard is 
incredible to me. And even the double standard we have to our 
own system.
    Look, there's lots of shortcomings that Russia has, and we 
should be pushing them on them, no doubt about it. But let's 
not use the most sinister words that we can possibly think up 
to describe things that are not quite that sinister, that if we 
use the same standard on us would seem sinister.
    How many people died in Waco? How many innocent citizens 
were incinerated, kids in Waco? Well, I want to tell you 
something, that can be described in very sinister terms. The 
guy who shot the woman who was holding her child at Ruby Ridge 
was given a promotion by the Clinton administration, as was the 
person who gave the orders to burn down those families in Waco.
    Now, does that mean that our system is very sinister, 
there's a sinister part of America--no, that means that people 
make mistakes, and we've got to make sure we hold them 
accountable for it. And we've got to expose it.
    Now, let me ask this, with all the talk I've heard so far, 
of these rallies, of which we can proud that Russia now has 
rallies against Putin, how many of their leaders have been 
picked up by the Putin administration and jailed. How many are 
in jail right now for those rallies that we've just seen on 
television these last few months? Are there any?
    Mr. Aron. They are harassed.
    Mr. Rohrabacher. Harassed.
    Mr. Aron. No, no, no. And you're absolutely right about 
double standards with regard to China. And the answer to this 
is, first of all, life is not fair. And, secondly, I've been 
thinking a lot about this. You know, we did not spend untold 
amount of Treasury opposing China for 50 years in the Cold War.
    Mr. Rohrabacher. Okay, well, I've got to--listen, my time 
is going to be used up on China, and we're talking about Russia 
today. And I don't think Russia is being dealt a fair hand. 
Because I will tell you, Putin is not a good guy, we all know 
that. He has a background that would lead him to decisions and 
to an arrogance that we would not accept here. I mean, I think 
the self-inflicted wound of having to run again is going to 
hurt Russia. And I'm sorry they made that decision, but let's 
go back to number one, the level of repression in Russia.
    I have asked over and over again, Madam Chairman, for lists 
of names of people who are political prisoners in Russia, and 
when I get the list almost all of them deal, and all of the 
journalists that have been repressed, almost all deal with the 
Chechnyan War. And let me just note that we have our own 
situation now where the police chiefs of New York City--oh, 
there must be massive repression against the Islamic community 
in New York because after 9/11 they started surveilling the 
Muslim community in New York.
    Well, in Russia there was a school where they blew up a 
whole bunch of kids, the Chechnyans did, they went into a 
theater, they have been conducting terrorist activity in and on 
Russians.
    Now, yes, that leads people to overreact at times, but 
almost all of the political prisoners, Madam Chairman, where 
I've asked to get the list from and all the sinister discussion 
of all the political prisoners that they have now, and the 
journalists who have been assassinated, almost all of it is 
traced to this war with radical Islam, and especially the 
Chechnyan War.
    Now, I don't think that is fair for the American people not 
to know. I think it's okay to say okay, they got political 
prisoners as a result of this war with radical Islam, but 
American people are given the assumption that the political 
prisoners are all just democratic reformers who are out 
protesting against Putin. That's not a fair comparison.
    Look, I want to--again, let's hold the Russians who are 
involved with human rights violations, hold them personally 
accountable, but let's not create a false image here that 
creates a--we should be best friends with Russia in dealing 
with the China threat and the radical Islamic threat. That's 
what's on both of us. Instead, we're pushing them away, and 
pushing them into the arms of China.
    Chairman Ros-Lehtinen. Thank you, Mr. Rohrabacher. Mr. 
Connolly. Thank you, Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairman. Well, gosh, I 
certainly take a point from our friend from California, but we 
just had some of the most powerful testimony this committee has 
ever heard about a political prisoner who was not from 
Chechnya. He had the gall to actually try to practice law and 
represent a defendant falsely accused on trumped up charges to 
cover up massive corruption. And that is not an anomaly in 
Russian jurisprudence sadly.
    So, right here in this hearing we actually have an example, 
Mr. Rohrabacher of exactly what you're saying, give me proof. 
And it isn't just an example, it is a horrific example of the 
worst kind of totalitarian justice, frankly, and it needs to be 
singled out and condemned----
    Mr. Rohrabacher. Would the gentleman yield for just one 
moment?
    Mr. Connolly. Yes, sir.
    Mr. Rohrabacher. I'd like to be on the record to make sure 
I am appalled at that type of activity, and just don't let 
anybody think by my remarks that I in any way excuse that type 
of thing. So, thank you.
    Mr. Connolly. I thank the gentleman. But let me go to the 
Ambassador. Ambassador, you said in your testimony, and I know 
you weren't suggesting therefore do nothing, but you said, 
frankly, our ability to influence practice within--domestically 
within Russia is limited. And I think back to the Cold War era 
which, sadly, I'm old enough to remember vividly.
    We did, we adopted Vanik-Jackson, Jackson-Vanik. We 
supported refuseniks. We singled out Sharansky and some other 
high profile dissidents and by doing so protected them from 
what Mr. Browder described tragically that happened to Mr. 
Magnitsky, so we were able under the Communist era to somewhat 
influence behavior. We can't be delusional about how much, 
but--and maybe it had counterproductive impacts, as well. I 
don't know, but how do we solve this balance, though, between 
the moralistic instincts of U.S. foreign policy that have 
always been with us in the bounding of the Republic, and the 
politics of Realpolitik where we have to pursue our own self-
interest economically, and politically, and geopolitically. And 
maybe what we should do is just turn a blind eye to all that 
stuff, unpleasant though it is.
    What's the balance in Russia? And I wanted to give you an 
opportunity to sort of expand a little bit on that so we don't 
misconstrue what you meant.
    Ambassador Pifer. No, I think your question is a very good 
one. And it's one of the challenges that this administration 
has faced, and really every administration for the last 30 or 
40 years has faced with the Soviet Union, or Russia, is how do 
you strike that balance between on the one hand engaging on 
issues where you can work with the Soviet Union or Russia to 
advance interests, while also being clear about problems that 
you have on the human rights side.
    I think if you go back, for example, to the Reagan 
administration, during the Reagan administration there was a 
four-part agenda: Arms control, regional issues, bilateral 
questions, and human rights. And I think the experience of 
those 8 years was that as you made progress on some of the 
positive issues it, in fact, increased your ability to have 
impact on human rights questions.
    I served at the Embassy in Moscow from 1986 to 1988 during 
the Reagan administration's second term, and at that point we 
saw progress, in fact, increasing our ability to push and help 
make change on the human rights side, and you were seeing a 
good number of refuseniks beginning to get out and such. So, 
this is one of the challenges is, in fact, finding a 
relationship where if you can work to find interests which 
coincide and you can broaden that relationship that, in fact, 
may give you a greater ability to affect the Russians' 
decisions on questions like human rights where we have real 
problems.
    Mr. Connolly. And I understood from your testimony, too, we 
can't frame this as an either/or. Either we pursue our self-
interest very callously and turn a blind eye to all this human 
rights stuff, or we pursue this high moral ground at the 
expense of our self-interest. That's a false choice.
    Mr. Aron. Exactly.
    Ambassador Pifer. That would certainly be an easier way to 
do the policy, but it's the wrong policy for the United States.
    Mr. Connolly. Mr. Kramer, thank you. Very little time here, 
but you gave pretty blunt assessment of Russia and its 
governance. What is your prescription for U.S. foreign policy 
given the characterization you made of the Russian leadership?
    Mr. Kramer. Mr. Connolly, when I was in the Bush 
administration, we tried to pursue areas of common interest 
with Russia while also pushing back wherever we had 
differences. I would argue that policy should remain the same. 
I think the current approach has been with much more emphasis 
on pursuing common interest, and not on the push back. I would 
apply that not only to the area of human rights and democracy 
problems in Russia, but also toward Russia's neighbors.
    If I can, I know we're out of time, but I'm sorry Mr. 
Rohrabacher left. I do worry----
    Mr. Connolly. This is going to cost me chocolate.
    Chairman Ros-Lehtinen. Don't bring him back, come on. Have 
pity on us.
    Mr. Kramer. Madam Chair, I do worry that there was a 
demonization of Chechens in the comments that he made. In 1994 
to 1996 when Russia invaded Chechnya, there were tens of 
thousands of Chechens slaughtered. In 1999 when the war resumed 
with Chechnya, there were tens of thousands of Chechens 
slaughtered again. This is how Putin came to power. It is 
impossible to separate the problem in the North Caucasus. It is 
impossible to separate the issue of Chechnya from Putin's 
current position. This is how he came to power.
    So, while, of course, the Magnitsky case is not related to 
Chechnya, what happened in Chechnya is appalling, and the 
current leader of Chechnya is one of the worst human rights 
abusers in the country, if not in the world.
    Chairman Ros-Lehtinen. Thank you, Mr. Connolly, and thank 
you, Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chair. My apologies, 
terrible schedule today of having to have two committee 
hearings at the same time. But I do want to thank you for 
calling this important hearing on Russia, and my apologies to 
our expert witnesses here this morning that I wasn't here to 
listen to their testimonies. But just a couple of questions, I 
would appreciate from our witnesses.
    Correct me if I'm wrong, but it's my understanding that we 
spent well over $5 trillion to win the Cold War against the 
former Soviet Union. And correct me if I'm wrong again, it 
appears that we were not anticipating that this would happen to 
the Soviet Union's downfall. And my question is with all the 
spying, and the intelligence, and things that we've done for 
the 40-year period during the Cold War, why is it that our 
national leaders never realized that something was going wrong, 
that the Soviet Union would just collapse. Can anybody--maybe 
I'm wrong. Can anybody tell me--we're pretty good at keeping 
eyes on the atomic weapons, their missiles, and all the 
military might, but we couldn't even predict the fact that they 
would fall. Am I wrong in this? I would appreciate the witness' 
response to this.
    Ambassador Pifer. Congressman, I have to admit guilt. I 
served at Embassy Moscow from 1986 to 1988 and we did not see 
at the end of 1988 that the Soviet Union would not be in 
existence 3 years later.
    Mr. Berman. Would the gentleman yield?
    Mr. Faleomavaega. I gladly yield.
    Mr. Berman. There's one exception to what the gentleman 
said. I heard Daniel Monynihan give a speech in January 1985 
where he predicted--he was a little wrong because he predicted 
by the end of the century the Soviet empire would disintegrate 
because of its own failings.
    Ambassador Pifer. I think there was one American analyst, 
George Kolt, who made the prediction but he was very much of a 
minority view at the time.
    Mr. Berman. Imagine a politician making it.
    Mr. Aron. If I may, this is very gratifying to me because 
in the new book that Madam Chairman so kindly mentioned 
published by Yale this June, the first chapter is precisely 
dealing with the issues of why nobody could predict it.
    Chairman Ros-Lehtinen. Out this spring.
    Mr. Aron. And the reason for this, very briefly, is that we 
looked in the wrong places. We're all trained to look at the 
economy, military, security, we never look at the morality. And 
this regime, like all authoritarian regimes, like Arab Spring, 
like any other fall of authoritarian regime, ultimately starts, 
the spark is moral revolution. And I think this is what 
Gorbachev's glasnost did. And that nobody could predict.
    Mr. Faleomavaega. I think my colleague from California 
mentioned about the good Senator Monynihan from New York, but 
just one leader in our Government was able to make the 
prediction? That amazes me. With all the Rand Corporations, and 
all the experts and everything that we have in our capacity to 
look at--especially as the only other super power, it was our 
rival, and we were not able to see this coming. Because the 
next thing that leads to my next question, this was basically a 
socialist-Marxist society as a country, and their idea of a 
free enterprise, free marketing system unlike the Chinese, 
there's about $300 billion worth of assets that Chinese 
business people had outside of China which enabled China, in my 
humble opinion, why the economy is able to do it, because 
you've got multi--hundreds of billions of dollars of Chinese 
investors that go into it from Taiwan. You know, maybe they all 
don't realize Taiwan and China, even before the better 
relations they now have, they were having 100-billion trade 
relationship, unofficial they call it.
    My question that I wanted to raise on this is that did it 
seem that--and it didn't matter what administration, we 
failed--our Government failed to give the Soviet Union or 
Russia the necessary resources to bring itself back to regain 
its sense of stability, if you will. Am I wrong on this, 
because I seem to get that--whether Democrat or Republic 
administration, in my opinion we failed to give Russia the 
necessary resources to regain itself in terms of what happened 
when they tried to work in a Democratic system. They tried to 
work getting to the free market system, but it seems that our 
Government just didn't seem to give them the resources. Dr. 
Aron, am I wrong on this assessment?
    Mr. Aron. It's very complicated. Let me just remind you 
that Russia is making $900 million a month from the sale of 
oil. I think the resources it not exactly the issue. I think 
it's inability of the Russian civil society to mature and to 
watch over executive, which is why the current protests are so 
hopeful because that may be a sign of an evolving civil 
society, which is our best hope.
    Mr. Faleomavaega. I've got 50 more questions, but I've got 
my 20 seconds left. Madam Chair, I will have written questions. 
I just wanted to ask if the Obama administration made the right 
decision not to hold a missile defense system built in Poland, 
the Czech Republic years ago. But my time is up, I'm sorry.
    Chairman Ros-Lehtinen. Maybe we have time for a yes or no.
    Mr. Kramer. They handled it the wrong way, but their 
current system is not a bad one.
    Mr. Faleomavaega. All right, thank you. Thank you, Madam 
Chair.
    Chairman Ros-Lehtinen. Thank you so much. Mr. Sherman is 
recognized for 5 minutes.
    Mr. Sherman. Thank you, doctor, and I think you've hit on 
something, and that is you need a unifying ideology to keep an 
elite, and an entire society together, an agreement as to who 
should rule, that can be theocracy, the Division Right of 
Kings, Communism when you believe it as a religion, or 
something very close, democracy has a lot of appeal. And I 
would comment that the ideology that gives the Communist party 
of China the right to rule is we're a bunch of--we're a 
Communist party that no longer believes in Communism. This is 
not an ideology or a morality, if you will, that's going to 
hold water. Their second reason is we bring you 7 percent 
growth, and as long as they do they won't have an ideological 
problem. But I doubt very much whether there's an ideology that 
will help that government survive bad economic times.
    My first question is to the entire panel. There's a tension 
in foreign affairs between self-determination on the one hand, 
and territorial integrity on the other, the two great wars 
fought on American soil, one in 1776 was our war for self-
determination, and in 1861 began our war for territorial 
integrity.
    Now, we took the side of self-determination vis-a-vis the 
individual republics of the Soviet Union, the republics of 
Yugoslavia, and the Serbian region of Kosovo. We took the side 
of territorial integrity with regard to Abkhazia, South 
Ossetia, Trans-Dniester Moldova, the Krajina region of Croatia, 
and the northern parts of Kosovo that wanted to break off from 
the newly independent Kosovo. Is there any consistent them in 
all that? Does anybody have a theme?
    Ambassador Pifer. I'm not going to argue that the policy 
was always consistent. I think with regard to the specific case 
of the breakup of the Soviet Union, the decision was to 
recognize the states that emerged in their territorial 
boundaries at that point, because redrawing one of those 
borders would open up a can of worms.
    Mr. Sherman. I would say there is a consistent theme, and I 
agree, the individual decisions can be justified. But in I 
believe it's like 15 different cases or close to that, we took 
the anti-Russia position whenever we had to decide between 
territorial integrity and self-determination. The Krajina 
region of Croatia had to stay with Croatia because the Serbs 
there wanted independence. Northern Kosovo could not rejoin 
Serbia, et cetera, et cetera.
    I realize that--so whether it was--I mean, Kosovo was never 
an independent republic, and yet we--and for very good 
individual reasons. But when you lay out a whole plan like 
this, it seems like the reflex from the Cold War of taking the 
anti-Russian position is also a theme underlying our individual 
decisions. Dr. Aron.
    Mr. Aron. Just to remind you of one exception to your rule, 
and perhaps the one that mattered the most to Russia.
    Mr. Sherman. Chechnya.
    Mr. Aron. Chechnya, yes.
    Mr. Sherman. Yes. No rule is any good without one 
exception.
    One thing that's important at least to a lot of Americans 
are the Schneerson Collection of papers. I don't know if any of 
you are familiar with those. We returned the Smolensk Library 
to Russia. Do any of you have any ideas as to why the Russians 
are so stubborn on these papers and/or what we could do to 
change their minds? Dr. Aron?
    Mr. Aron. Well, it's the inability to come to terms with 
the crimes of Stalinism, of which by the way the Smolensk 
Archive is one of the key evidences. It's all written, it's all 
there. It's the archive of the Obkom which is the regional 
party committee detailing all sorts of----
    Mr. Sherman. Are you saying that our return of the Smolensk 
Archives was somehow harmful to Russian interests?
    Mr. Aron. No, no, no, no, no. What I'm saying is in the 
case--no, it's a good thing that we returned them. It's just 
the uses that Russia refuses to make of its past is continuing 
to poison the situation in the country. Katyn Massacre----
    Mr. Sherman. A few religious documents cannot be released?
    Mr. Aron. No, no, no, they're not religious documents.
    Mr. Sherman. The papers of the Chabad Rebbe?
    Mr. Aron. Oh, I see, I see. Sorry.
    Mr. Sherman. Yes, sorry, wrong answer.
    Mr. Aron. There is a----
    Mr. Sherman. Doctor, perhaps--does somebody have a comment 
on the papers I was talking about?
    Mr. Aron. Right, okay, sorry, I take it back.
    Mr. Sherman. Great answer, but not to my question. Anyone 
have a comment? Thank you. I yield back.
    Chairman Ros-Lehtinen. Thank you very much, and I thank the 
members, I thank the audience, I thank the panelists. And the 
trial starts Saturday.
    Mr. Browder. The rally scheduled for Sergei Magnitsky was--
the first rally that they have rejected, they're not allowed 
the rally for Sergei Magnitsky on Saturday, and they're going 
to be starting the trial imminently, we don't know when, again 
Sergei and against myself. Sergei dead, me in absentia in the 
first ever posthumous trial in Russian history.
    Chairman Ros-Lehtinen. Amazing. Well, thank you very much. 
Thank you for excellent testimony, and the meeting is 
adjourned. Much success.
    [Whereupon, at 12:18 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



Material submitted for the record by the Honorable Gregory W. Meeks, a 
         Representative in Congress from the State of New York

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  Material submitted for the record by the Honorable David J. Kramer, 
                        President, Freedom House

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  Material submitted for the record by Leon Aron, Ph.D., director of 
             Russian studies, American Enterprise Institute

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[Note: The remainder of this article is not reprinted here but is 
available in committee records.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
